No. 19-872
In the

Supreme Court of the United States
__________________
MATTHEW REID HINSON,
Petitioner,
v.
R.A. BIAS, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________
BRIEF IN OPPOSITION
__________________
CRAIG D. FEISER
Assistant General Counsel
Counsel of Record
JON R. PHILLIPS
Deputy General Counsel
GABRIELLA YOUNG
Assistant General Counsel
OFFICE OF GENERAL COUNSEL
117 West Duval Street, Suite 480
Jacksonville, Florida 32202
(904) 255-5100
cfeiser@coj.net
Counsel for Respondents
May 4, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether a petition for certiorari should be granted
where the Eleventh Circuit correctly applied Supreme
Court precedent and settled rules of law to this case,
where Petitioner had nothing to overcome the officers’
entitlement to qualified immunity as a matter of law,
relying instead on video footage that mostly
corroborated, and did not contradict, the Respondents’
sworn evidence, and otherwise blatantly contradicted
Petitioner’s unsupported claims?

ii
STATEMENT OF RELATED PROCEEDINGS
There are no other court proceedings directly
related to this case.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
REASONS TO DENY THE WRIT. . . . . . . . . . . . . . 11
I.

The Eleventh Circuit’s Opinion Comports
with Scott v. Harris, and Does Not Conflict
with This Court’s Precedent . . . . . . . . . . . . . 11

II.

There is No Split in Authority. . . . . . . . . . . . 24

III.

This Case is a Poor Vehicle to Resolve the
Issues Raised in the Petition . . . . . . . . . . . . 32

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

iv
TABLE OF AUTHORITIES
Cases
Abney v. Coe,
493 F.3d 412 (4th Cir. 2007). . . . . . . . . . . . . . . . 10
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986). . . . . . . . . . . . . . 16, 17, 26, 31
Barham v. Salazar,
556 F.3d 844 (D.C. Cir. 2009). . . . . . . . . . . . . . . 32
Behrens v. Pelletier,
516 U.S. 299 (1996). . . . . . . . . . . . . . . . . . . . 13, 14
Benjamin v. Thomas,
766 Fed. Appx. 834 (11th Cir. 2019) . . . . . . . 9, 27
Beshers v. Harrison,
495 F.3d 1260 . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Blaylock v. City of Philadelphia,
504 F.3d 405 (3d Cir. 2007) . . . . . . . . . . . . . 30, 31
Cady v. Walsh,
753 F.3d 348 (1st Cir. 2014) . . . . . . . . . . . . . 29, 30
Cottrell v. Caldwell,
85 F.3d 1480 (11th Cir. 1996). . . . . . . . . . . . 24, 25
Culosi v. Bullock,
596 F.3d 195 (4th Cir. 2010). . . . . . . . . . . . . . . . 32
David v. Edwards,
779 Fed. Appx. 691 (11th Cir. 2019) . . . . . . . . . 27
Flythe v. District of Columbia,
791 F.3d 13 (D.C. Cir. 2015). . . . . . . . . . . . . . . . 20

v
Fuentes v. Riggle,
611 Fed. Appx. 183 (5th Cir. 2015) . . . . . . . 30, 31
Garver v. Brandt,
584 Fed. Appx. 393 (9th Cir. 2014) . . . . . . . . . 29
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . passim
Hammett v. Paulding City,
874 F.3d 1036 (11th Cir. 2017). . . . . . . . . . . . . . 16
Hinson v. Bias,
927 F.3d 1103 (11th Cir. 2019). . . . . . . . . . passim
Johnson v. Clifton,
74 F.3d 1087 (11th Cir. 1996). . . . . . . . . . . . 24, 25
Johnson v. Jones,
515 U.S. 304 (1995). . . . . . . . . . . . . . . . . . . . 13, 14
Kingsley v. Hendrickson,
135 S. Ct. 2466 (2015). . . . . . . . . . . . . . . . . . . . . 10
Lassiter v. Alabama A&M University,
28 F.3d 1146 (11th Cir. 1994). . . . . . . . . . . . . . . 26
Leiser v. Kloth,
933 F.3d 696 (7th Cir. 2019). . . . . . . . . . . . . . . . 28
Martinez v. Simonetti,
202 F.3d 625 (2d Cir. 2000) . . . . . . . . . . . . . . . . 29
McGrew v. Duncan,
937 F.3d 664 (6th Cir. 2019). . . . . . . . . . . . . . . . 27
McMillian v. Johnson,
88 F.3d 1554 (11th Cir. 1996). . . . . . . . . . . . 24, 26

vi
Pace v. Capobianco,
283 F.3d 1275 (11th Cir. 2002). . . . . . . . . . . . . . . 9
Plumhoff v. Rickard,
572 U.S. 765 (2014). . . . . . . . . . . . . . . . . 15, 31, 34
Quinette v. Reed,
2020 WL 864889 (11th Cir. 2020) . . . . . . . . . . . 26
Raines v. Counseling Assocs., Inc.,
883 F.3d 1071 (8th Cir. 2018). . . . . . . . . . . . . . . 29
Ralston v. Cannon,
884 F.3d 1060 (10th Cir. 2018). . . . . . . . . . . . . . 29
Salazar-Limon v. City of Houston,
137 S. Ct. 1277 (2017). . . . . . . . . . . . . . . 11, 12, 33
Scott v. Harris,
550 U.S. 372 (2007). . . . . . . . . . . . . . . . . . . passim
Siegert v. Gilley,
500 U.S. 226 (1991). . . . . . . . . . . . . . . . . . . . . . . . 1
Thompson v. Dill,
930 F.3d 1008 (8th Cir. 2019). . . . . . . . . . . . 28, 29
Underwood v. Barrett,
924 F.3d 19 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
White v. Pauly,
137 S. Ct. 548 (2017). . . . . . . . . . . . . . . . . . . . . . 10
Statutes
28 U.S.C. § 1292 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

1
INTRODUCTION
There is no principled basis for this Court’s review
of the Eleventh Circuit’s decision and the Court should
deny the Petition. In presenting his question to this
Court, Petitioner Hinson (“Hinson” or “Petitioner”)
misconstrues the Eleventh Circuit’s opinion, claiming
that the court of appeals’ reasoning was merely based
on its “disagreement with the district court’s review of
the factual record;” specifically, the district court’s
conclusion that a surveillance video tape would allow
a reasonable juror to conclude that Hinson was not
resisting arrest. This, Petitioner argues, was not a
basis for jurisdiction to review the district court’s
qualified immunity opinion as a “collateral order.”
To the contrary, the Eleventh Circuit did not base
its decision on a “factual disagreement.” The appeal
taken by the officers and decided by the Eleventh
Circuit involved several issues of law, not evidence
sufficiency. One of the issues was whether the officers
were entitled to qualified immunity on Hinson’s
excessive force claim, because the undisputed facts
showed they had not committed a constitutional
violation. This was a legal issue sufficient for
interlocutory review. See Siegert v. Gilley, 500 U.S. 226,
232 (1991) (“A necessary concomitant to the
determination of whether the constitutional right
asserted by the plaintiff is ‘clearly established’ at the
time the defendant acted is the determination of
whether the plaintiff has asserted a violation of a
constitutional right at all.”).
Also among those issues of law were the district
court’s crediting of the allegations in the complaint as

2
part of the undisputed facts even though all of those
allegations were inadmissible hearsay, i.e., they were
based on what Hinson’s father told him about the
content of the surveillance footage Hinson had not seen
and the events of which Hinson testified under oath he
had no recollection. The Eleventh Circuit, as a matter
of law, ruled that an affidavit from Hinson’s father was
inadmissible hearsay and could not be credited. See
Hinson v. Bias, 927 F.3d 1103, 1108 (11th Cir. 2019).
Another issue of law was whether the officers were
entitled to qualified immunity on Hinson’s claim that
they were deliberately indifferent to his medical needs.
The Petition focuses entirely on the contention that the
Eleventh Circuit did not have jurisdiction to review the
determination that there was a dispute of fact over
whether Hinson resisted the officer’s commands prior
to being handcuffed.1 Hinson does not complain that
the Eleventh Circuit had no jurisdiction to review the
denial of qualified immunity on the deliberate
indifference claims. Thus, Hinson has abandoned that
issue and provides no explanation for how the Eleventh
Circuit could not have had jurisdiction to review the
entire case as it relates to qualified immunity when he
now concedes there was jurisdiction to review the

1

On page 12 of the Petition, Petitioner states that “[b]ecause the
Officers appealed and the Eleventh Circuit decided only the
question whether the record permitted genuine issues of fact
concerning Mr. Hinson’s conduct at the scene of the arrest,” the
Eleventh Circuit lacked jurisdiction to consider the appeal. This
statement is misleading. Respondents appealed questions of law,
including deliberate indifference and whether the district court
could legally consider hearsay evidence as “undisputed facts.”

3
deliberate indifference claims against the very same
officers in the very same incident.
The Eleventh Circuit did exactly what courts of
appeals are supposed to do–examine whether the
officers were entitled to qualified immunity as a matter
of law based on undisputed facts in the record. Hinson’s
characterization of the Eleventh Circuit’s analysis–that
the court determined merely a question of evidence
sufficiency regarding the issue of Hinson’s
resistance–is an incorrect and misleading
characterization, much like Hinson’s repeated
misleading characterizations about the facts in the
record.
The Eleventh Circuit correctly reviewed the only
admissible, material evidence presented by Petitioner
in the case–a surveillance video–to determine whether
the officers acted in an objectively reasonable manner
when they confronted a fleeing murderer. This review
included the district court’s misapplication of the
factors in Graham v. Connor, 490 U.S. 386 (1989). As
a matter of law, the Eleventh Circuit applied this
Court’s analysis in Scott v. Harris, 550 U.S. 372 (2007),
and found that the officers did not violate the
Constitution when they used reasonable force to
subdue Hinson, who had just brutally murdered a man
by slashing his throat.2
In short, Petitioner’s inflammatory interpretation of
the “facts,” while not objectively supported and
blatantly contradicted by the surveillance video footage
2

Petitioner was convicted of murder and remains in prison for this
heinous crime.

4
and also contradicted by the officers’ sworn, first-hand
version of events and expert evidence, did not create
genuine material facts to overcome the officers’
immunity. Petitioner correctly notes that the Eleventh
Circuit applied the correct qualified immunity analysis
in light of the video footage of the arrest, as this Court
has instructed appellate courts to do when there is
uncontested surveillance video of an arrest. See Pet. at
16. Petitioner provided this footage to the Eleventh
Circuit via his own web link (created by counsel), and
he never questioned the appellate court’s jurisdiction
and duty to review the footage. The Eleventh Circuit
correctly held that the unsupported and contradicted
speculations by Petitioner and his counsel could not, as
a matter of law, defeat qualified immunity under the
analysis in Scott. The district court therefore erred in
this case and had to be reversed. This case does not
present circumstances justifying certiorari review.
STATEMENT OF THE CASE
As they have throughout this case, Hinson and his
counsel spin a new and fantastical tale based solely on
their nonsensical interpretations of the apprehension
surveillance footage and footage of Hinson’s post-arrest
interview. Hinson began this case as a pro se plaintiff
with no recollection of any of the events at issue, and
he never viewed the surveillance footage. Years later,
his appointed counsel used that footage to create their
own version of events, without any evidence and
without any confirmation by any of the footage in the
video. The district court erred by simply accepting
Hinson’s unfounded version of facts in his complaint,
and the Eleventh Circuit corrected that error by finding

5
that immunity had to be determined in light of the
surveillance footage compared to the officers’ sworn
testimony because Hinson had no firsthand evidence.
Similarly, in Scott, an inconclusive or blatantly
contradictory video was not enough evidence to
overcome the officers’ entitlement to qualified
immunity as a matter of law.
Viewed from the officers’ perspective under the
circumstances they confronted at the time, the facts, as
shown from the un-contradicted evidence, including the
Jacksonville Landing surveillance video, are as
follows:3
1. “For no apparent reason,” Hinson had just
committed a brutal stabbing and was attempting
to leave the scene of the murder. Pet. Appx. 1.
Officer Williams saw the victim lying in a pool of
blood, dead on the floor of the bar where he had
just been slashed in the throat by Hinson. Id. at
5.
2. An eyewitness was giving the dispatcher
information that Hinson was attempting to leave
the Jacksonville Landing (an entertainment
complex) in his truck, as corroborated by the
video and Officer Anderson. As Hinson was
attempting to exit the parking lot, he was
surrounded by officers. Id. at 4.

3

The Respondents do not agree with the Petitioner’s factual
background statement, beginning on page 7 of the Petition, and so
the actual undisputed facts are described herein.

6
3. The Landing parking lot exit was very close
quarters. A bloodied Hinson did not immediately
put his hands up. Even though the video has no
sound, the footage shows officers obviously
shouting commands that were not followed for
several seconds. Id. at 4-5. The officers could not
initially see both of the murder suspect’s bloody
hands. Id. at 5.
4. Hinson did not make a move to get out of his
truck. Officers therefore had to guide him out of
the very narrow space, thus placing a potentially
armed murder suspect in close proximity to the
officers. Id. at 5.
5. In fact, Hinson was armed. A knife–the murder
weapon–fell to the ground while he was close to
the officers. Another large knife was in Hinson’s
truck. Id. at 7.
6. Still in very close quarters, Hinson did not turn
around or immediately comply with officer
commands for several seconds, and thus the
officers took him to the ground. Petitioner’s
claim that he never offered resistance is patently
false. Id. at 5-6. Objectively, officers could not
know if Hinson was still armed and therefore
posed an imminent threat to safety.
7. In a quick succession of events, officers tried to
get ahold of Hinson’s hands, giving him five
strikes to the back, and then one strike to the
face, which ultimately led to Hinson releasing
his hands. Id. at 6-7. Officer Bias was then able
to handcuff Hinson and no further force was

7
used. Id. at 7. The characterization of these six
strikes in order to accomplish the handcuffing as
a “beating” is hyperbole.
8. Officer Janes, who was not involved in the arrest
and was never a defendant in this case, put on a
pair of gloves and picked up Hinson after he was
handcuffed. Hinson refused to walk and fell to
the ground. Id. at 7. Officer Janes nudged
Hinson with his foot then picked up Hinson and
escorted him to the patrol car. The Petition’s
description of Hinson as “bloodied” and “dazed”
is more hyperbole and unsupported by the
evidence. Moreover, the claim that an officer
kicked Hinson “in the groin” is both false a red
herring; it is undisputed that none of the
Respondents kicked Hinson.
9. Hinson never indicated that he needed medical
attention. Id. at 7, 12-13. He had abrasions on
his face. Respondents’ medical expert testified
that the minor abrasions were consistent with
his face coming in contact with the pavement
and a brief struggle with officers. Id. at 13-15.
The characterization of his abrasions as
“bleeding for hours” is hyperbole.
10. The
post-a rrest
i nt erv i ew
footage
unquestionably shows that the facial abrasions
were not serious, as Hinson was rubbing his face
and was not wincing or showing any signs of
pain. Hinson also never asked for medical
assistance before he was cleared into the Duval
County Pre-trial Detention Facility. Id. at 13-15.

8
Hinson told detectives he was “alright.” Id. at
33.
These facts were undisputed and uncontested by
Hinson with any material evidence, and they were uncontradicted by any video footage or other record
evidence. All that Hinson had was the videotape which
contradicts nothing material in the record testimony
from the officers and their experts and actually
corroborates nearly all of it. Hinson should not be able
to simply create a wild version of the “facts” (which he
does not independently remember), and then claim that
his version of events should defeat qualified immunity.
That is all the Petition does here; it creates a tall tale
which could not defeat immunity under the analysis in
Scott where there is an uncontested video.
In denying qualified immunity, the district court
recognized as a matter of law that Hinson had to
“present evidence beyond the pleadings showing that a
reasonable jury could find in its favor.” Pet. App. at 41.
While accepting that Hinson could remember nothing,
the court nonetheless found that the video “could”
create material facts to overcome qualified immunity
under the totality of circumstances faced by the
officers. Citing Scott, the court reasoned that it had to
view the facts in the light depicted by the videotape,
but then found that Hinson’s version of events in his
complaint was supported by the video footage.
Moreover, without evidence, the court found that other
officers could have intervened under the circumstances
and, despite no evidence and blatantly contradictory
post-arrest interview footage, that Hinson’s injuries
were sufficiently serious to warrant medical attention.

9
Respondents appealed this decision because, as a
matter of law, the district court misapplied Scott and
failed to take into account the totality of the
circumstances from the officers’ perspective in light of
the uncontested video footage. Petitioner never raised
the issue of whether the district court’s order was
appealable to the Eleventh Circuit, in his briefs on the
merits or during argument to the appellate panel, until
he asked the appellate court for rehearing en banc after
an adverse decision. Not a single judge on the Eleventh
Circuit sought polling to possibly rehear this case en
banc and consider Petitioner’s new “collateral order”
argument. Pet. App. at 72-73.
While the trial court had to take all of the facts in
the light most favorable to Hinson as the non-moving
party, that did not mean Hinson could create an
unsupported and blatantly contradicted storyline to
defeat immunity.4 As the Eleventh Circuit correctly

4

The Eleventh Circuit correctly concluded that Petitioner’s
attempt to use an affidavit from this father as evidence based
solely on his father’s interpretation of the video footage could not
defeat summary judgment because the affidavit was inadmissible
hearsay. See Hinson v. Bias, 927 F.3d 1103, 1108 (11th Cir. 2019).
Respondents argued that the affidavit, as well as the Petitioner’s
“verified complaint” itself, was sham evidence because neither was
based on any firsthand knowledge and thus could not defeat
summary judgment. See also Pace v. Capobianco, 283 F.3d 1275,
1278-79 (11th Cir. 2002) (affidavit from witness, based solely on
his beliefs regarding the facts, was insufficient to overcome
immunity); Benjamin v. Thomas, 766 Fed. Appx. 834, 837
(11th Cir. 2019) (disregarding plaintiffs’ affidavits when they were
not present at the scene of the shooting). Petitioner does not
dispute the reasoning of the Eleventh Circuit on this issue, but
nonetheless puts forth his hearsay version of the facts based solely

10
held, the events of the arrest had to be objectively
analyzed from the perspective of the reasonable
arresting officers on the scene, as the chaotic events
unfolded, and without the benefit of 20/20 hindsight.
See, e.g., Abney v. Coe, 493 F.3d 412, 416 (4th Cir.
2007), citing Graham, 490 U.S. at 396-97 (holding that
“reasonableness is evaluated from the perspective of
the officers on the scene, not through the leisurely lens
of hindsight”). This means that as a matter of law, the
court could only consider facts that were knowable to
the officers on the scene, giving them all the benefit of
the doubt in quickly apprehending a fleeing, potentially
armed murderer. See White v. Pauly, 137 S. Ct. 548,
551-52 (2017). Under the Scott analysis, the videotape
had to support Hinson’s created version of events. The
district court’s misapplication of Scott and the Graham
analysis was an appealable order to the Eleventh
Circuit.
Excessive force means force applied recklessly that
is unreasonable in light of the facts and circumstances
of the time. See Kingsley v. Hendrickson, 135 S. Ct.
2466, 2471 (2015).
Given the entirety of the
circumstances in this case (i.e., a brutal murder, a
fleeing armed suspect, a chaotic scene in a parking
garage, and a suspect not immediately complying with
orders), the question was what amount of force was
reasonably justified in securing the arrest and
protecting both the officers and the public. By this

on an unsupported interpretation of the video footage, apparently
by his attorneys, many years after the fact. Just as the appellate
court rejected Petitioner’s affidavit from his father, it rejected
similar second-hand accusations from counsel.

11
objective standard, the officers’ quick actions were
justified and they were entitled to immunity. The lower
court erred as a matter of law in considering the
allegations in the complaint based on inadmissible
hearsay as “facts” without any admissible evidence to
overcome immunity or contradict the officers.
Respondents properly appealed that order and sought
reversal of this errant qualified immunity analysis.
REASONS TO DENY THE WRIT
I.

The Eleventh Circuit’s Opinion
Comports with Scott v. Harris, and
Does Not Conflict with This Court’s
Precedent.

Contrary to Petitioner’s contention, the Eleventh
Circuit’s opinion does not conflict with this Court’s
precedent. As was noted in Salazar-Limon v. City of
Houston, 137 S. Ct. 1277, 1278 (2017), this Court rarely
grants review “where the thrust of the claim is that a
lower court simply erred in applying a settled rule of
law to the facts of a particular case.”5
Indeed, Salazar-Limon illustrates perfectly why
Hinson’s Petition should be denied, as the Petition in
that case was denied despite being a far better case for
the petitioner there than Hinson’s claim. SalazarLimon involved the application of deadly force; he was
shot by an officer after a traffic stop because he “made
a motion for his waistband.” Id. at 1279. Two Justices

5

The Court cited Rule 10 of the Rules of the Supreme Court of the
United States.

12
felt the evidence was sufficiently controverted by
Salazar-Limon’s testimony so as to preclude summary
judgment. Id. at 1280-81. Hinson’s claims are far
weaker than those of Salazar-Limon; unlike the
shooting in that case, Hinson was subjected to a mere
six compliance strikes, was not seriously hurt, and was
being arrested because he murdered a man with a knife
with which he was still armed, and he testified under
oath that he remembered nothing of the events and
could not contradict the officers’ sworn testimony.
The Eleventh Circuit’s opinion squarely comports
with the Court’s reasoning in Scott v. Harris, 550 U.S.
372 (2007), which the Eleventh Circuit cited in
determining that Hinson did not meet his burden to
demonstrate that the officers used objectively
unreasonable and excessive force in violation of clearly
established law. Just as in Scott, the Eleventh Circuit
emphasized that Petitioner relied on only one
admissible piece of material evidence to determine
what happened in this case–surveillance footage of his
arrest.6 In the end, “what looked at first like a tale of
two stories turns out to be a single one, uncontradicted
in any material way by any admissible evidence in this
case.” Hinson, 927 F.3d at 1108.
The crux of Petitioner’s argument is that the
Eleventh Circuit’s approach in this case, and in
6

In his complaint, Petitioner admitted that he was solely relying
on the surveillance video, which he never personally viewed. There
was no other admissible, material evidence. Petitioner’s attorneys
also relied on the surveillance footage, even creating their own link
to the video so the Eleventh Circuit could review it in conjunction
with their unsupported version of the facts.

13
qualified immunity cases dating back decades, is in
conflict with Johnson v. Jones, 515 U.S. 304 (1995), and
Behrens v. Pelletier, 516 U.S. 299 (1996). This is
incorrect, and there is no justification to overturn
decades of established case law on qualified immunity.
Johnson involved a factual dispute where the plaintiff,
unlike this case, had evidence to overcome summary
judgment (his own sworn deposition and admissions in
the officers’ depositions that supported his theory of the
case), and thus the district court’s determination
regarding evidence sufficiency was not a final order.
See Johnson, 515 U.S. at 308. Unlike Johnson, this
case is not a simple “we didn’t do it” case; here, the
officers had a mountain of evidence, including their
own sworn statements, as to the chaotic and potentially
dangerous circumstances surrounding the arrest of a
fleeing murderer. Petitioner had no evidence, and thus
the court of appeals had to review the video, just as the
court did in Scott. Petitioner could not meet his burden
to overcome qualified immunity as a matter of law.
Less than one year later, in Behrens, the Court
clarified and cabined Johnson. The Court held that just
because material fact issues remained for trial did not
mean that an order regarding qualified immunity could
not be reviewed on appeal. Behrens, 516 U.S. at 312-13.
The Court explained that “if what is at issue in the
sufficiency determination is nothing more than
whether the evidence could support a finding that
particular conduct occurred,” there is no “final decision”
to review. Id. at 313. The denial of summary judgment
in Behrens “necessarily determined” that certain
controverted facts constituted a violation of clearly
established law, and thus Johnson did not bar

14
appellate review. Id. The same is true here—only more
so—as Petitioner had no evidence to controvert what
occurred during his arrest and whether the officers
objectively acted reasonably under the circumstances.
Petitioner could remember nothing and the video did
not show anything contradicting the officers’ sworn
statements. Thus, as a matter of law, Petitioner could
not overcome qualified immunity.
Despite Petitioner’s attempt to gloss over Scott as
not concerning jurisdiction and inapplicable to this
case, Scott does further clarify Johnson and Behrens
and does present the same circumstances faced by the
appellate court in this case. Scott was an excessive
force case where the district court denied the officers’
motion for summary judgment based on qualified
immunity because there were “material issues of fact
on which the issue of qualified immunity turns which
present sufficient disagreement to require submission
to a jury.” Scott, 550 U.S. at 377.
The Court stressed that “[t]he first step in assessing
the constitutionality of Scott’s actions is to determine
the relevant facts.” Id. at 378. While that usually
means adopting the plaintiff’s version of the facts, in
Scott, like here, there was a videotape capturing the
events in question that clearly contradicted the
plaintiff’s version of the facts. Id. The plaintiff had to
show more than just “some metaphysical doubt” as to
the facts, but rather had to show a genuine issue of
material fact even if there was some dispute between
the parties. Id. at 381. The court had to view the facts
in the light depicted by the videotape, and that is what
the Eleventh Circuit did here. See id. at 380-81. In the

15
end, the video and un-contradicted facts determine
whether the officers’ actions were reasonable under the
circumstances they faced at the time. See id. at 384.
This does not present an issue for certiorari review.
Petitioner also ignores this Court’s decision in
Plumhoff v. Rickard, 572 U.S. 765 (2014), in which it
distinguished orders like that entered in Scott (and
here) from the type entered in Johnson. The Court held
that appellate courts have jurisdiction to review orders
such as the one here, reasoning that the district court’s
order in Plumhoff was “not materially distinguishable
from the District Court order in Scott v. Harris, and in
that case we expressed no doubts about the jurisdiction
of the Court of Appeals under § 1291.” Id. at 773. Here,
Petitioner’s sole ground for seeking review is that the
Eleventh Circuit exceeded its jurisdiction, and this is
simply not true under the Court’s decision in Plumhoff,
which plainly says that when officers contend their
conduct did not violate the Fourth Amendment, that is
a reviewable legal issue, not a purely factual issue. See
id.
The Eleventh Circuit pointed out that Petitioner
remembered nothing about his arrest after he put his
hands up, and therefore the only evidence relevant to
the qualified immunity analysis was the video footage
and the officers’ sworn statements. See Hinson,
927 F.3d at 1112. As a matter of law, the court had to
determine the facts in light of the videotape, as the
Court did in Scott. Unlike Scott, here Petitioner had no
other material evidence whatsoever and the objective
video footage blatantly contradicted his second-hand
story. Moreover, Scott presented far more justification

16
for denying qualified immunity than did Hinson. There,
Harris was a fleeing motorist against whom deadly
force was used, not a fleeing murderer against whom
rather trivial non-deadly force was applied.
Thus, contrary to Petitioner’s arguments, this was
not a case of mere “evidence sufficiency” or weighing of
evidence; it was case where the Petitioner had no
evidence to combat the mountain of evidence
establishing that qualified immunity should apply as a
matter of law. Just as in Scott, the appellate court had
to review the videotape to determine whether qualified
immunity applied, and whether its presentation of the
events conflicted with the only other evidence in the
case–the officers’ sworn statements. The surveillance
video did not support the allegations in the complaint
or the fantastical story told in the appellate briefs and
now in the Petition; instead, it flatly contradicted
Petitioner’s conjecture and supported the officers’
sworn statements, as did the footage in Scott. The
Eleventh Circuit’s opinion was completely in line with
this Court’s precedents.
The court of appeals followed Scott and longestablished law requiring de novo review of summary
judgment orders and the factors that establish
qualified immunity. Importantly, the court emphasized
that inferences “based on speculation and conjecture”
are not reasonable, and a “mere scintilla of evidence”
could not overcome qualified immunity. Id. at 1115,
citing Hammett v. Paulding City, 874 F.3d 1036, 1049
(11th Cir. 2017), and Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 252 (1986). As the Court stated in
Anderson, a plaintiff cannot “merely assert[] that the

17
jury might, and legally could, disbelieve” the
defendants’ evidence, but instead plaintiff must present
“affirmative evidence” to allow a reasonable jury to find
in his favor. Id. at 1115-16, quoting Anderson, 477 U.S.
at 252, 257. Here, Petitioner had no evidence other
than surveillance video which he, and the district
court, believed “could” allow a jury to find in his favor.
The Eleventh Circuit correctly held that as a matter of
law, that utter lack of evidence could not overcome the
officers’ entitlement to qualified immunity.
Petitioner himself did not view the video, and his
attorneys’ allegations in their briefs show that they are
attempting to create a material fact out of thin air,
despite being blatantly contradicted by the surveillance
video. For example, Petitioner never argued on appeal
that he may have been struck by a flashlight, despite
the district court inexplicably finding this to be
potentially true. That is because such an allegation is
blatantly contradicted by the video and, under Scott,
had to be disregarded by the Eleventh Circuit.
Then, for the first time on appeal and continuing in
the Petition, Petitioner’s counsel added the completely
unfounded allegation that Petitioner was “kicked in the
groin,” an allegation that is not in the complaint or in
any way supported by the video and was never
discussed by the trial court.7 All of this demonstrates
the “visible fiction” of Petitioner’s story and why the
Eleventh Circuit, correctly under Scott, viewed the
uncontested video footage and determined that as a

7

Moreover, this unfounded allegation concerned the actions of an
officer who was not a defendant in this case.

18
matter of law, excessive force was not used by the
officers under the circumstances they faced in arresting
a fleeing, bloody murderer.
If the video utterly discredits the plaintiff’s story,
summary judgment should be granted. That was the
case here, as Petitioner had no evidence and no
memory of the circumstances surrounding his arrest,
and the video (both of the arrest and the post-arrest
interviews) blatantly contradicts his wild claims of
being beaten and seriously injured. What the video did
confirm was that Petitioner posed an unknowable risk
to both the officers and the public, as he had just
slashed a man’s throat, had two knives in his
possession, was attempting to flee the scene, and given
the time lapse shown by the video, did not immediately
comply with the officers’ commands. The Eleventh
Circuit correctly held that the district court should be
reversed because the officers were entitled to immunity
as a matter of law.
Petitioner focuses entirely on what he claims is a
“fact issue” found by the district court regarding
whether he was resisting arrest, thereby justifying the
use of force. However, whether Petitioner was “actively
resisting” is only one factor to consider within the
entirety of the officers’ circumstances in determining
whether their limited use of force was reasonable. As
the Court stated in Graham, the determination as to
excessive force “requires careful attention to the facts
and circumstances of each particular case, including
the severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
or others, and whether he is actively resisting arrest or

19
attempting to evade arrest by flight.” Graham,
490 U.S. at 396 (citation omitted). In short, “[t]he
calculus of reasonableness must embody allowance for
the fact that police officers are often forced to make
split-second judgments—in circumstances that are
tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular
situation.” Id. The Eleventh Circuit applied these legal
standards and the Graham factors to this qualified
immunity appeal.
The Eleventh Circuit properly viewed the
surveillance video and discussed the uncontested
circumstances, which included Petitioner’s serious and
heinous crime committed, his attempt to flee the scene
after slashing the victim’s throat, the reasonableness of
the officers’ perception that Petitioner posed a risk to
public safety given that he was armed, bloody, of large
stature and attempting to flee, and the need for some
force in making the arrest to prevent any further
threat. The appellate court correctly held as a matter
of law that given the totality of the circumstances as
perceived by the officers at the time of the arrest, the
use of some force was reasonable and did not violate
the Constitution. There is no reason to disturb that
holding in this specific case.
Petitioner argues that the Eleventh Circuit did
nothing more than watch the same video and disagree
with the factual findings of the lower court. This is not
the case. What the Eleventh Circuit did find was that,
as a matter of law when reviewed from the perspective
of a reasonable officer on the scene trying to capture a
fleeing murderer, the officers acted reasonably in using

20
force to arrest Petitioner. In so holding, the Eleventh
Circuit stressed that it must take the facts in the light
most favorable to Petitioner, but because he
remembered nothing about the events and could not
rebut the officers’ testimony, all the court had before it
was surveillance video, along with Petitioner’s
deposition testimony and medical records and sworn
firsthand testimony from the officers and their experts.
Id. at 1116.
The court emphasized that it would not necessarily
accept the officers’ version of events, but it had to
examine the video footage to see if it was consistent
with their sworn testimony. Id. at 1118, citing Scott,
550 U.S. at 372, Flythe v. District of Columbia,
791 F.3d 13, 19 (D.C. Cir. 2015). It could not simply
accept what the footage could conceivably show, and
thus the district court erred in concluding that the
video was inconclusive and therefore material facts
existed. The trial court could not just take Petitioner’s
word what was in the video; he had to present evidence
showing the existence of a material fact to overcome
immunity. He had to show the officers violated clearly
established law through more than just speculative
accusations and contradicted allegations. This
approach by the Eleventh Circuit was entirely
appropriate and consistent with Scott and the longestablished reasoning in the Eleventh Circuit and other
sister courts of appeals.
As stated in Scott, the Eleventh Circuit could not
accept assertions, such as the manufactured ones
Petitioner continues to make to this Court, that were
flatly contradicted the surveillance video. See Beshers

21
v. Harrison, 495 F.3d 1260, 1262 n.1, citing Scott,
550 U.S. at 372. In so holding, the Eleventh Circuit
found that based on the uncontroverted evidence in the
video, which was not inconsistent with the officers’
sworn testimony, Petitioner did not initially comply
with the officers’ instructions. See Hinson, 927 F.2d at
1120. As a matter of law, the court of appeals viewed
the video in conjunction with all the other evidence in
this case and concluded that the officers were entitled
to qualified immunity. There is no basis for certiorari
review of that holding in this specific case.
Looking at all the circumstances objectively through
the eyes of the officers at the time, as the court was
required by law to do, the Eleventh Circuit properly
found that Hinson posed an immediate threat to the
officers and the public. Given the obvious time lapses
in the surveillance video, which contradict Petitioner’s
notion that he immediately complied with the officers’
commands, the Eleventh Circuit held that a
“reasonable officer could feel a compelling need to apply
force” to get Hinson under control, particularly since he
was armed, bloody and fleeing the scene of a brutal
murder he just committed. See id.
The Eleventh Circuit accepted that officers
Anderson and Bias struck Hinson, but only after he did
not immediately comply with their commands, a fact
shown in the video without any evidence to contest it.
See id. Some force was therefore necessary to gain
compliance from Hinson and prevent any possible harm
to the officers or the public. The force was reasonable
and the injuries were de minimis.

22
All the officers knew for sure was that Hinson had
just slashed a man’s throat “for no apparent reason”
and left him in a pool of his own blood while Hinson
attempted to flee the scene and get away from
witnesses and law enforcement. The officers, in the
moment, had no way to know what further threat
Hinson posed, especially once they realized he had a
knife and was not immediately complying with their
commands and in fact could have been merely feigning
whatever compliance he may have appeared to be
evincing. This was not just a “disagreement” with the
district court on factual issues; this was blatantly
presented by the evidence and completely uncontested
with any admissible evidence. As a matter of law,
Petitioner failed to overcome the officers’ entitlement
to qualified immunity on his Fourth Amendment claim.
This legal holding was entirely consistent with
longstanding precedent; certiorari review is
unwarranted.
Notably, Petitioner’s entire argument is based on an
alleged “fact issue” as to whether he was resisting
arrest. There is no mention of whether the officers were
deliberately indifferent to Hinson’s medical needs. That
is for good reason. What the videotaped post-arrest
interviews showed, along with the uncontested medical
records, was that Hinson’s injuries were de minimis.
Under Graham, the minor nature of the injuries is one
factor that shows that there was no excessive force and
qualified immunity applied to the officers’ actions.
Petitioner himself admitted that he never asked for
medical assistance, and any claim that his injuries
were serious is flatly contradicted by the video and

23
medical evidence.8 In fact, the post-arrest evidence
simply supports the holding that, as a matter of law,
the officers did not violate a clearly established
constitutional right by using excessive force in
arresting Hinson.
Unlike the cases cited by Petitioner, this is not a
case of “evidence sufficiency” and whether Petitioner
had evidence that would create a material fact for a
jury. Petitioner had no evidence in this case to rebut
the officers’ sworn testimony, only a surveillance video
which does not support his claims and does not
contradict any of the officers’ statements. Neither
Petitioner nor the district court could simply say the
video is inconclusive or may conceivably present a fact
issue for a jury; Petitioner had to present evidence
creating a material fact, otherwise the officers were
entitled to qualified immunity as a matter of law. With
material evidence on only one side, the Eleventh
Circuit had to view the video to determine whether it
could rebut the officers’ entitlement to immunity. It
could not. This case therefore differs from other cases

8

The video shows conclusively that Hinson was coherent during
the interviews, was not bleeding or behaving in a way that would
suggest a serious medical need, and even described how he stabbed
the victim. It therefore makes sense that the Petition does not
challenge the Eleventh Circuit’s holding as to deliberate
indifference to serious medical needs; these allegations were
blatantly contradicted by the video footage of the post-arrest
interviews, and thus Scott dictates that the Eleventh Circuit had
to take the facts in light of the video interview footage. So,
according to the Petitioner, the Eleventh Circuit had no
jurisdiction despite having jurisdiction.

24
where evidence was presented on both sides of the
qualified immunity issue.
II.

There is No Split in Authority.

Petitioner also argues that the Eleventh Circuit’s
decision in this case, and its decisions dating back
decades, demonstrates that the court disregards this
Court’s rules regarding “collateral orders,” and also
conflicts with the decisions of sister circuit courts of
appeals. Even if that were true, which it is not, this
would not be the case to decide that issue and
potentially overturn decades of established law in the
Eleventh Circuit. There is no direct split between this
specific case, which lines up with Scott, and dissimilar
cases in other circuits. This specific case involves a
convicted murderer who had no evidence to overcome
qualified immunity, and therefore the officers were
entitled to immunity as a matter of law.
Petitioner highlights Johnson v. Clifton, 74 F.3d
1087 (11th Cir. 1996), Cottrell v. Caldwell, 85 F.3d
1480 (11th Cir. 1996), and McMillian v. Johnson,
88 F.3d 1554 (11th Cir. 1996), all decided decades ago,
as being both in line with this case and in conflict with
this Court’s law on qualified immunity and “collateral
orders.” This is incorrect and it does not provide a basis
for the Court to review the Eleventh Circuit’s decision
in this fact-specific, much different case. In Johnson,
the Eleventh Circuit simply held the lower court’s
order regarding whether a public official could have
believed his conduct was lawful based on clearly
established law was a final, collateral order that could
be reviewed on appeal. This ruling as a matter of law
is uncontroversial. Johnson, 74 F.3d at 1087.

25
The appellate court then reasoned that in making a
summary judgment ruling based on qualified
immunity, the district court must determine whether
there is a genuine issue of material fact as to whether
the defendant’s conduct violated clearly established
law. Johnson, 74 F.3d at 1087. That ruling is
appealable and necessitates a review of the material
fact issues to determine if qualified immunity should
apply as a matter of law. See id. In this case, Hinson
had no memory and no evidence and raised no material
facts at all; the Eleventh Circuit, like the Court did in
Scott, had to review the video footage and the officers’
uncontested evidence to determine if qualified
immunity applied as a matter of law.
Cottrell’s reasoning is similar to Johnson’s in that
the Eleventh Circuit simply held that it can determine
whether the evidence would violate clearly established
law to determine if qualified immunity applies. The
court can review “core qualified immunity issues”
independently of the final judgment rule’s exceptions
found in 28 U.S.C. § 1292, and that includes
determining whether there were material facts to
overcome the defendants’ entitlement to qualified
immunity. See Cottrell, 85 F.3d at 1484-85. The district
court in this case viewed the surveillance footage and
found that it “could” present material facts to
demonstrate that the officers violated clearly
established law and thus qualified immunity would not
apply. This denial of summary judgment was
reviewable by the Eleventh Circuit and it could view
the videotape to determine whether it was enough to
overcome immunity, given that Petitioner had no other
material evidence. This was not in conflict with this

26
Court’s precedent, and the Eleventh Circuit’s decadesold precedent should not be disturbed in this case.
Lastly, Petitioner cites another 1996 Eleventh
Circuit decision in McMillian v. Johnson, 88 F.3d 1554
(11th Cir. 1996), as being in conflict with this Court’s
precedent. Again, the Eleventh Circuit held in
McMillian that the court’s determination of whether
the defendants were entitled to qualified immunity
required it to determine whether a reasonable official
would have known that his actions violated clearly
established law, and therefore the appellate court had
to determine the relevant facts at issue. Id. at 1562.
The Eleventh Circuit based this conclusion on the
longstanding admonition in Anderson that to be clearly
established, “the law that the government official
allegedly violated must have earlier been developed in
such a concrete and factually defined context to make
it obvious to all reasonable government actors, in the
defendant’s place, that ‘what he is doing violates
federal law.’” Lassiter v. Alabama A&M Univ., 28 F.3d
1146, 1149 (11th Cir. 1994), quoting Anderson,
483 U.S. at 640.
None of these decades-old Eleventh Circuit cases
has ever been cited or challenged as an outlier in the
qualified immunity analysis or as being in conflict with
this Court’s controlling precedent. In any event, this
case differs from other qualified immunity cases in that
here, the analysis is in line with Scott and turns on
whether the officers’ actions were objectively
reasonable in light of the circumstances they faced at
the time and the video surveillance footage, without
any other material evidence presented by Petitioner.

27
See also Quinette v. Reed, 2020 WL 864889 (11th Cir.
2020) (under Scott, appellate court would review video
in the light depicted by the footage where it obviously
contradicted plaintiff’s story); David v. Edwards,
779 Fed. Appx. 691, 694 (11th Cir. 2019) (same);
Benjamin v. Thomas, 766 Fed. Appx. 834, 837
(11th Cir. 2019) (appellate court reviewed camera
footage and disregarded plaintiffs’ affidavits when they
were not present at the scene of the shooting). As a
matter of law, in light of the video and the officers’ uncontradicted sworn statements, the Eleventh Circuit
held that in this case the district court erred and the
officers were entitled to immunity. This is not a case
that would justify certiorari review.
Petitioner’s assertion that this case should be
reviewed because the Eleventh Circuit’s analysis is
“irreconcilable” with its sister circuits is misplaced.
Petitioner cites a long chain of cases from other circuits
where the qualified immunity analysis turned on
different circumstances than in this case, making this
case an inappropriate vehicle to determine how the
Eleventh Circuit’s overall approach to reviewing
denials of qualified immunity may or may not differ
with its sister courts. In McGrew v. Duncan, 937 F.3d
664 (6th Cir. 2019), for example, the Sixth Circuit
unremarkably held that it could only review issues of
law on a qualified immunity appeal, but then stressed
that the plaintiff could get to a jury only if she could
create a genuine fact issue. See id. at 669-70.
Unlike this case, in McGrew the officers asked the
appellate court to go outside the record and make
factual findings. See id. Here, the Eleventh Circuit had

28
to review the record, with no evidence presented by
Petitioner, in the light presented by the video
surveillance footage and interview footage, as well as
the officers’ sworn statements to determine whether
the amount of force used was reasonable or if it
violated clearly established law. The Petitioner’s
support for his version of the facts was not only absent,
his allegations were contradicted by the record that
was before the district court.
Similarly, in Leiser v. Kloth, 933 F.3d 696 (7th Cir.
2019), the Seventh Circuit held that the defendants
could not interpose disputed factual issues into their
argument, but the appellate court had to review de
novo whether the defendants violated clearly
established law. Moreover, if one side concedes the
other’s facts, the appellate court can review the order
denying qualified immunity. See id. Here, the officers’
facts were either conceded or could not be contradicted
by Petitioner, and there was video footage that
supported the officers’ testimony and blatantly
contradicted the Petitioner’s unsupported allegations.
The Court’s decision in Scott dictated that there was no
material evidence demonstrating that the officer
violated clearly established law when they quickly and
safety arrested a fleeing murderer. This case is not
conflicting and does not present the same
circumstances as the other circuits cited by Petitioner.
Petitioner also cites the Eighth Circuit’s recent
decision in Thompson v. Dill, 930 F.3d 1008, 1012
(8th Cir. 2019), for the proposition that the appellate
court cannot review whether the record contains a
material issue of fact for trial. However, this means

29
there must be a disputed issue of material fact. See id.
at 1011. The court also held that “[r]eversal of denial of
qualified immunity is warranted ‘where the record
plainly forecloses the district court’s finding of a
material dispute.’” Id. at 1012, citing Raines v.
Counseling Assocs., Inc., 883 F.3d 1071, 1074 (8th Cir.
2018), and Scott, 550 U.S. at 380 (emphasis added).
That is exactly the case here. This case thus differs
from the so-called “conflicting” cases cited by
Petitioner.9 See also Ralston v. Cannon, 884 F.3d 1060,
1064-65 (10th Cir. 2018) (stating that appellate court
did not have jurisdiction to review district court’s pure
evidence sufficiency ruling that there was record
evidence presented by plaintiff to show an intent to
interfere with his free exercise rights); Garver v.
Brandt, 584 Fed. Appx. 393 (9th Cir. 2014) (district
court held there were material fact issues in the record
as to what the social workers were told before removing
child, and therefore decision was purely based on
evidence presented by parties); Martinez v. Simonetti,
202 F.3d 625 (2d Cir. 2000) (appellate court could not
review district court’s denial of immunity based on
genuine conflicting evidence, including officers’
depositions and evidence that the plaintiff was badly
hurt).
Likewise, in Cady v. Walsh, 753 F.3d 348 (1st Cir.
2014), there was evidence on both sides that prevented
the appellate court from reviewing whether there was

9

In Thompson, the appellate court found that there was body
camera evidence corroborating the plaintiff’s facts and
contradicting the officer’s version of facts. See id. at 1014. The
opposite is true here.

30
material evidence that could overcome qualified
immunity. The plaintiff even had an expert witness
that conflicted with the defendants’ expert. Id. at 35152. Unlike this case, in Cady there was a mountain of
disputed material evidence presented by both parties
such that the appellate court could not overturn a
finding that the evidence was sufficient to create fact
issues as to qualified immunity. In other words, the
First Circuit could not simply re-weigh the evidence
and do nothing more on appeal.
Two cases buried within Petitioner’s long string
citation in support of his “split of authority” argument,
Fuentes v. Riggle, 611 Fed. Appx. 183 (5th Cir. 2015),
and Blaylock v. City of Philadelphia, 504 F.3d 405
(3d Cir. 2007), are instructive in their discussions of
Scott and demonstrate that Petitioner’s case does not
create a split of authority. In Fuentes, the Fifth Circuit
held that it lacked jurisdiction to review the officer’s
claim that the factual dispute was not genuine, given
the parties’ differing firsthand accounts, and it went on
to differentiate Scott in dicta. Fuentes, 611 Fed. Appx.
at 190-91. The court interpreted Scott as altering the
standard for review when a videotape is involved,
noting that jurisdiction was assumed in Scott because
“undisputed documentary evidence … contradict[ed]
[the] plaintiff’s factual account.” Id. at 191. Unlike
Scott and this case, in Fuentes there was no
“undisputed, contemporaneous recording of the
disputed events.” Id. Nonetheless, the appellate court
recognized that if there was such a recording, Scott
would dictate that the appeals court would have
jurisdiction on appeal to review the video for itself to

31
determine if the officers’ actions were objectively
reasonable.
Similarly, the Third Circuit in Blaylock held,
unremarkably, that questions of pure evidence
sufficiency when there is genuine conflicting evidence
in the record are not reviewable on appeal, but the
court went on to note that Scott allows an appellate
court to review a videotape to determine whether the
district court erred in its conclusions as to material fact
issues. See Blaylock, 504 F.3d at 413-14. If an
undisputed videotape contradicts the plaintiff’s
allegations, as it does in this case, the appellate court
can independently review the video footage to
determine if the officers’ actions were objectively
reasonable. See id. at 413. This is because the plaintiff
must raise a genuine issue of fact, and an objective,
undisputed recording of the events tells the true story.
See id. (quoting Anderson, 477 U.S. at 247-48). Here, as
in Scott but unlike Fuentes and Blaylock, the appellate
court “had before it a videotape of undisputed
authenticity depicting all of the defendant’s conduct
and all of the necessary context that would allow the
Court to assess the reasonableness of that conduct.” Id.
at 414. Nothing about Petitioner’s specific case conflicts
with any other circuit decision.
This is therefore a much different case than any
case Petitioner cites as demonstrating a “split of
authority.” Here, the Eleventh Circuit conducted its
analysis in line with Scott and judged the officers’
actions under an objectively reasonable standard in
light of the circumstances before them in the moment
and the video footage, which supported their sworn

32
statements and either conflicted with or did not
support Petitioner’s hearsay version of events. See also
Plumhoff, 572 U.S. at 773 (holding that the court of
appeals properly exercised jurisdiction under Scott). In
other words, this was not a case where the plaintiff did
not present enough evidence that his version of events
actually occurred; here there was no evidence to
contradict the officers’ testimony as supported by the
surveillance footage (as well as post-arrest interview
footage and medical records). See Culosi v. Bullock,
596 F.3d 195, 201 (4th Cir. 2010); Barham v. Salazar,
556 F.3d 844, 845 (D.C. Cir. 2009) (claim to qualified
immunity depended on resolving disputed factual
evidence); Underwood v. Barrett, 924 F.3d 19, 20-21
(under Scott, court had to view evidence in light of the
videotape, where it contradicts plaintiff’s story). The
evidence here was completely one-sided and told only
one story.
III.

This Case is a Poor Vehicle to
Resolve the Issues Raised in the
Petition.

Even if the Eleventh Circuit misinterpreted and
misapplied Johnson almost 25 years ago (which it did
not), this would not be the case to review that
interpretation on qualified immunity analysis. This
case involved a fleeing, bloody murderer and the
officers who risked their lives to stop and arrest him.
Under the circumstances, as shown by the video and
uncontested testimony, the officers acted reasonably in
using minimal force to arrest the suspect, causing de
minimis injury to him. To allow cases like Petitioner’s
to overcome the officers’ entitlement to immunity from

33
suit would allow any plaintiff, without firsthand
knowledge, to simply present video footage and ask the
court to speculate on what it might show, based only on
concocted, implausible accusations, and then claim the
court’s take on the video is unreviewable no matter
how obviously wrong.
Moreover, accepting Petitioner’s view would
insulate from qualified immunity appeals all district
court orders consisting of only one sentence—“the court
hereby finds that genuine issues of material fact
preclude summary judgment, therefore the motion is
denied.” This is not the law. Respondents moved for
summary judgment with a mountain of evidence
(including the video) and, unlike other cases, here the
Petitioner responded with nothing to overcome
immunity. The district court erred in its review of the
video and hearsay allegations as a matter of law and,
like in Scott, the appellate court had to reverse. Even
if Hinson was correct in asserting there is a circuit
court split of authority—which he is not—the fact
remains that the Eleventh Circuit got it right. It
therefore makes no sense to grant certiorari review
when the Court could just as easily resolve the split in
a future case where a circuit court gets it wrong.
In the end, Petitioner is simply asking the Court to
review an opinion with which he disagrees. This does
not warrant certiorari review. See, e.g., Salazar-Limon,
137 S. Ct. at 1278 (“We may grant review if the lower
court conspicuously failed to apply a governing legal
rule. … [but] we rarely grant review where the thrust
of the claim is that a lower court simply erred in
applying a settled rule of law to the facts of a particular

34
case.”). Petitioner has not presented any genuine
conflict with this Court’s precedent; to the contrary, the
Eleventh Circuit’s opinion is consistent with the
Court’s decisions in Scott and Plumhoff. In fact, in
Plumhoff the Court answered the precise question
posed by Petitioner regarding the jurisdiction of
appellate courts, and this case does not demonstrate
any need to revisit the Court’s holdings in Scott or
Plumhoff. Review is not justified and the Petition
should be denied.
CONCLUSION
For the foregoing reasons, the Petition for Writ of
Certiorari should be denied.
Respectfully submitted,
Craig D. Feiser
Assistant General Counsel
Counsel of Record
JON R. PHILLIPS
Deputy General Counsel
GABRIELLA YOUNG
Assistant General Counsel
OFFICE OF GENERAL COUNSEL
117 West Duval Street, Suite 480
Jacksonville, Florida 32202
(904) 255-5100
cfeiser@coj.net
Counsel for Respondents
DATED: MAY 4, 2020

